Report No. D-2009-007          October 31, 2008




            Procurement and Use of
             Nontactical Vehicles at
          Bagram Air Field, Afghanistan
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
CJTF                          Combined Joint Task Force
DCMA                          Defense Contract Management Agency
LOGCAP                        Logistics Civil Augmentation Program
RCC                           Regional Contracting Center
RETC                          Rashed Elham Trading Company
TDY                           Temporary Duty
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704


                                                                                 October 31, 2008

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, COMBlNED JOINT TASK FORCE-WI
               COMMANDER, JOINT CONTRACTING COMMAND-
                 IRAQI AFGHANISTAN
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Procmement and Use of Nontactical Vehicles at Bagram Air Field, Afghanistan
         (Report No. D-2009-007)


We are providing this report for your information and use. We considered client comments on a
draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Timothy Moore at
(703) 604-9068 (DSN 318-664-9068) or James Setlock (DSN 318-431-4443). If you desire, we
will provide a formal briefing on the results.




                                      r/D~~~~~~
                                            Deputy Director
                                            Joint and Overseas Operations
Report No. D-2009-007 (Project No. D2008-D000LQ-0063.000)                        October 31, 2008

               Results in Brief: Procurement and Use of
               Nontactical Vehicles at Bagram Air Field,
               Afghanistan
                                                         traffic. Documentation for the justification of
What We Did                                              the leases of nontactical vehicles ranged from
The objective of the audit was to determine the          providing specific purposes to citing the words
effectiveness of the process for procuring and           “vehicle lease,” or a justification was not
leasing nontactical vehicles at Bagram Air               provided. In addition, documentation for lease
Field, Afghanistan. We analyzed the process              justifications did not consider the local DoD bus
for procuring and for leasing nontactical                service. We estimated the additional annual
vehicles, the justifications for them, and               cost of the growth of leased nontactical vehicles
compliance with DoD guidance on their                    from March 2006 until January 2008 was
management. We reviewed records maintained               approximately $16 million. On April 10, 2008,
by the Regional Contracting Center Bagram, the           CJTF-101 took command from CJTF-82.
Combined Joint Task Force (CJTF)-82, and the
Defense Contract Management Agency                       What We Recommend
(DCMA) for nontactical vehicles, consisting of           We recommend that the Commander,
cars and trucks. We analyzed the costs of                CJTF-101:
operating these vehicles and justifications for
their use by tenant units at Bagram Air Field.            •   review and ensure that nontactical vehicles
We performed our audit fieldwork from                         used at Bagram Air Field are mission-
November 2007 until January 2008.                             essential and properly approved;
                                                          •   enforce DoD Regulation 4500.36-R
What We Found                                                 regarding the justifications and use of
DCMA had not purchased nontactical vehicles                   nontactical vehicles by tenant units at
under the Logistics Civil Augmentation                        Bagram Air Field; and
Program (LOGCAP) since May 2006. The                      •   establish a central consolidation point to
nontactical vehicles that were purchased were                 collect and maintain nontactical vehicle
used to support base operations. Justifications               inventories along with specific mileage
were provided for the purchased nontactical                   and purposes for which they were used at
vehicles.                                                     Bagram Air Field.

The CJTF-82, Logistics Office (CJ4) provided             Client Comments and Our
information that there was growth in the number          Response
of leased nontactical vehicles on Bagram Air
                                                         The Chief of Staff, Combined/Joint Task Force
Field from March 2006 until January 2008.
                                                         (CJTF)-101 agreed with the recommendations,
Specifically, CJ4 officials stated that the number
                                                         and no further comments are required.
of leased nontactical vehicles increased from
                                                         CJTF-101 has taken actions to improve the
102 to 1,548. During that time, CJTF-82 did not
                                                         management oversight of nontactical vehicles in
comply with provisions of the DoD Regulation
                                                         use on Bagram Air Field. The Chief of Staff
4500.36-R, “Management, Acquisition, and Use
                                                         had general comments, which we addressed
of Motor Vehicles,” dated March 16, 2007.
                                                         after the Finding section.
Thus, Bagram Air Field became congested with

                                                     i
Report No. D-2009-007 (Project No. D2008-D000LQ-0063.000)            October 31, 2008

Recommendations Table
Client                          Recommendations             No Additional Comments
                                Requiring Comment           Required
Commander, Combined Joint                                   1., 2., 3., and 4.
Task Force-101




                                          ii
Table of Contents

Results in Brief                                                        i

Introduction                                                            1

       Objectives                                                       1
       Background                                                       1

Finding. Controls for Nontactical Vehicle Leases at Bagram Air Field    3

       Client Comments on the Finding and Our Response                 8
       Recommendations, Client Comments, and Our Response              9

Appendix A. Scope and Methodology                                      11

       Review of Internal Controls                                     11
       Prior C overage                                                 11

Client Comments

       Combined Joint Task Force-101 Chief of Staff                    13
Introduction
Objectives
The objective of the audit was to determine the effectiveness of the process for procuring
and leasing nontactical vehicles at Bagram Air Field, Afghanistan. We also reviewed the
cost of operating and maintaining nontactical vehicles and determined whether the
amount of use complied with DoD guidance. We limited our review of nontactical
vehicles to automobiles and small trucks operated by tenant units for transferring
personnel and cargo. See the Appendix for the scope and methodology.

Background
Bagram Air Field is currently occupied and maintained by the 101st Airborne Division of
the U.S. Army. Command groups rotate in and out of Bagram Air Field approximately
every 15 months. On April 10, 2008, the CJTF-101 replaced the CJTF-82 as
Commander, Regional Command East at Bagram Air Field. The CJTF-101 and CJTF-82
missions, in conjunction with the Islamic Republic of Afghanistan, joint, interagency, and
multinational forces, are to conduct full spectrum operations to neutralize insurgent
forces in the combined joint operations area, develop Afghanistan national security
capabilities, and support the growth of governance and development in order to build a
stable Afghanistan. The CJTF-82 replaced the CJTF-76 1 in February 2007.

Documentation provided by the CJTF-82, Logistics Office, hereafter referred to as CJ4,
in January 2008 cited 1,548 leased nontactical vehicles on Bagram Air Field. The
circumference of the entire base is eight miles. There is one main road that circles the
perimeter of the air field. The base is self-contained and guarded at all times, and access
is limited to authorized personnel.

DoD-Purchased Nontactical Vehicles
Documentation provided by DCMA cited 512 nontactical vehicles purchased through the
LOGCAP, which the DCMA administers. The support contractor for the LOGCAP is
KBR, Inc., formerly known as Kellogg, Brown and Root, Incorporated, which supports
Bagram Air Field base operations. The justifications for the purchased nontactical
vehicles were included in the procurement documentation. The average cost of these
vehicles was approximately $22,000, and the average annual cost for service and parts
was approximately $2,000. The last nontactical vehicle purchased through the LOGCAP
was in May 2006.




1
 The mission of the CJTF-76 was to conduct full spectrum operations throughout the area to defeat the
enemy extremist movement, establish an enduring security, and reshape its posture for the “Long War” in
order to set conditions for long-term stability in Afghanistan.


                                                   1
Leased Nontactical Vehicles
According to documentation provided by the CJ4, the number of leased nontactical
vehicles, as of January 17, 2008, was 1,548. Tenant units at Bagram Air Field could
lease nontactical vehicles through the Regional Contracting Center (RCC) Bagram. The
average cost was approximately $900 a month, or $10,800 a year, including maintenance,
depending on the type of nontactical vehicle. RCC Bagram used the support contractor,
Rashed Elham Trading Company (RETC), located at Bagram Air Field, for nontactical
vehicle leases.




                                          2
Finding. Controls for Nontactical Vehicle
Leases at Bagram Air Field
According to the CJ4 officials, there was significant growth in the number of leased
nontactical vehicles on Bagram Air Field from March 2006 until January 2008.
Specifically, CJ4 officials stated that the number of nontactical vehicles increased from
102 to 1,548. During that time, CJTF-76 (and later CJTF-82) did not comply with or
enforce the provisions of the DoD “Management, Acquisition, and Use of Motor
Vehicles” Regulation, DoD 4500.36-R, dated March 16, 2007, which caused the growth
of nontactical vehicles. Approximately $16 million was spent for the additional leasing
of vehicles. Documentation for lease justifications was inconsistent and did not consider
the local DoD bus service at Bagram Air Field.


Requirements for Reducing the Number of Vehicles and
Obtaining Approval
DoD Management, Acquisition, and Use of Motor Vehicles
Regulation
The DoD Regulation 4500.36-R, “Management, Acquisition, and Use of Motor
Vehicles,” dated March 16, 2007 ( DoD Motor Vehicles Regulation) is the overarching
regulation for the use of nontactical vehicles by all DoD Components. The DoD Motor
Vehicles Regulation defines nontactical vehicles as “any commercial motor vehicle,
trailer, material handling, or engineering equipment that carries passengers or cargo
acquired for administrative, direct mission, or operational support of military functions.”
DoD considers sedans, station wagons, carryalls, vans, and buses to be nontactical. The
DoD Motor Vehicles Regulation also requires that motor vehicle resources be organized
and managed for optimum responsiveness, efficiency, and economy in support of the
DoD mission. Further, the DoD Motor Vehicles Regulation states that when an
organization determines that motor vehicle transportation is required, the organization
must consider DoD-scheduled bus service the first source of transportation.

Management is to measure the effectiveness of nontactical vehicle activities, and the
responsible DoD Component is to establish an annual utilization guideline for the use of
nontactical vehicles. In all cases, a document must be retained to show the specific
utilization guideline established for each motor vehicle.

Memoranda and Fragmentary Order
Before the start of our audit on November 2007, CJTF-76 issued a memorandum on the
need to reduce the number of nontactical vehicles at Bagram Air Field, yet the number
increased. The CJTF-76 memorandum issued regarding “Non-Tactical Vehicle
Reduction” stated that the large number of nontactical vehicles on Bagram Air Field was




                                             3
causing congestion on the base. 2 The memorandum recommended that CJTF-76 and
tenant units reduce the number of nontactical vehicles used on Bagram Air Field by
50 percent.

During our audit, CJTF-82 took proactive measures regarding the leasing of nontactical
vehicles at Bagram Air Field by issuing a memorandum dated December 18, 2007, and
FRAGO 3 779 dated January 1, 2008, on the need to have prior approval from CJ4 before
a lease could be executed by RCC Bagram. In its memorandum for Regional Contracting
Center Bagram, “Lease Vehicle Approval Requirements,” CJTF-82 stated that requests
for leases of nontactical vehicles on Bagram Air Field must first be endorsed by CJ4
before RCC Bagram executes contracts to procure leased nontactical vehicles.

FRAGO 779 stated that effective January 15, 2008, CJ4 is the approving authority for all
leases of nontactical vehicles to be used on Bagram Air Field. Further, CJTF-82 must
approve all current and future nontactical vehicle leases to “right size the excessive
vehicle fleet on Bagram Air Field.” FRAGO 779 implements an internal control
requiring CJ4 to approve or deny tenant units the ability to lease nontactical vehicles for
use on Bagram Air Field.

After the audit fieldwork was completed, CJTF-82 issued FRAGO 866 on the continuing
need to reduce the number of vehicles on Bagram Air Field. The CJTF-82 FRAGO 866,
dated March 5, 2008, directed Base Operations to “develop a nontactical vehicle
reduction plan with goal of reducing on-post vehicle population by 25%.”

After briefing the CJTF-101 Inspector General on June 30, 2008, regarding our audit, we
were informed that the CJTF-101, Red Team had issued a report regarding nontactical
vehicles dated June 17, 2008. The Red Team analyzed the nontactical vehicle
requirements, utilization, and alternatives on Bagram Air Field to determine how best to
serve the needs of tenant units while economizing on the use of nontactical vehicles. The
analysis provided short-term and longer term actions that could be taken to improve
nontactical vehicle management. CJ4 intends to develop and implement new policy
guidance on nontactical vehicle management and implement a vehicle registration
process.

Leased Nontactical Vehicles
Bagram Air Field tenant units leased nontactical vehicles through RCC Bagram, using
the support contractor, RETC, an Afghan company that is located at Bagram Air Field.
Neither RETC nor the DoD drivers of the nontactical vehicles maintained a log citing
daily mileage, destination, or purpose for each trip. In addition, CJTF-82 did not receive
specific mileage from the tenant units or information on how the leased vehicles were
used each day. These are the types of controls required by the DoD Motor Vehicles
Regulation to measure the use of each motor vehicle.

2
  The CJTF-76 memorandum, dated March 3, 2006, was issued by Headquarters CJTF-76 and directed to
all Bagram Airfield tenant units.
3
  FRAGO is a DoD term for fragmentary order, which is an abbreviated form of an operation order.


                                                 4
Regarding the mileage incurred on leased nontactical vehicles, RETC provided a
memorandum dated December 15, 2007, that reported leased nontactical vehicles at
Bagram Air Field logged, on average, an estimated 744 to 930 miles each month. The
drivers of the leased nontactical vehicles were not required to track the mileage or
purpose of trips.

Justifications submitted to RCC Bagram when beginning the lease process ranged from
providing specific details on how the nontactical vehicles would be used each day to
simply providing the words “vehicle lease,” or no justifications were provided. All
justifications for open leased nontactical vehicles available at RCC Bagram
(207 vehicles) were reviewed. A total of 64 Purchase Request and Commitments
(Department of Army Form 3953) and 16 Request for Purchases (Air Force Information
Management Tool 9) were reviewed. For example, one justification for a leased
nontactical vehicle was “vehicle for TDYers” (those on temporary duty). The
justifications for nontactical vehicles did not refer to using the established DoD bus
service, which according to the DoD Motor Vehicles Regulation is to be considered the
first choice for meeting transportation requirements.

CJTF-82 issued a memorandum dated December 18, 2007, that required requests to lease
vehicles to be submitted to CJ4 with a justification for the lease, the number of vehicles
on hand, and the number of personnel the vehicle would support. CJ4 would review the
support documentation and would need to endorse the request before RCC Bagram
executed the contract procedures to lease the vehicle. In addition, FRAGO 779, dated
January 1, 2008, required tenant units to provide justifications to CJTF-82 for currently
leased nontactical vehicles by January 15, 2008. However, as of January 27, 2008,
only 4 out of 24 tenant units had submitted justifications for their nontactical vehicles to
CJ4. Before FRAGO 779 was issued, CJTF-82 did not have an internal control regarding
the review of justification and approval for the leasing of nontactical vehicles by tenant
units at Bagram Air Field. Tenant units could use their own funds to lease nontactical
vehicles without the prior approval of CJTF-82.

The cost of using vehicles on Bagram Air Field included fuel consumption, vehicle
maintenance, and repair cost when the vehicle was returned to RETC at the end of the
lease period. The annual cost of fuel for the additional 1,446 leased nontactical vehicles,
the difference between the 1,548 leased nontactical vehicles as of January 2008 and the
102 leased nontactical vehicles as of March 2006, was approximately $1.6 million.




                                             5
Nontactical Vehicle Summary
The procurements of nontactical vehicles at Bagram Air Field are provided in the table.

           Nontactical Vehicles Used for Transporting Personnel and Cargo
                                         Number of Vehicles
            Date                Leased        Owned           Total
            March 2005              98          742             840
            March 2006             102          819             921
            January 2008         1,548          439           1,987
           Source: CJTF-82, Logistics Office (CJ4) at Bagram Air Field, January 17, 2008.

The last nontactical vehicle purchased through the LOGCAP was in May 2006. Not all
purchased nontactical vehicles are still in use.

Enforcement of the DoD Regulation
The DoD Management, Acquisition, and Use of Motor Vehicles Regulation requires that
motor vehicle resources be organized and managed for optimum responsiveness,
efficiency, and economy by all DoD Components. CJTF-76 officials recognized that too
many nontactical vehicles were in use at Bagram Air Field on March 3, 2006, when they
issued a memorandum recommending that the number be reduced by 50 percent.
However, CJTF-76 did not take control of nontactical vehicles and enforce the DoD
Motor Vehicles Regulation. When CJTF-82 replaced CJTF-76 in February 2007 and
took command at Bagram Air Field, CJTF-82 did not enforce the requirements of the
DoD Motor Vehicles Regulation. CJTF-82 had no provision for a central organization at
Bagram Air Field to review and approve leased nontactical vehicles until CJTF-82 issued
a memorandum dated December 18, 2007, followed by FRAGO 779 on January 1, 2008,
that required approval from CJ4 before a lease could be executed. By that time, the
number of leased nontactical vehicles by tenant units was causing congestion at Bagram
Air Field.

Available Bus Transportation
The average number of bus passengers during March 2006 was approximately 63,000.
As of December 2007, the average number of bus passengers each month was
approximately 24,000 – a reduction of more than 50 percent. The decrease in bus use by
personnel stationed at Bagram Air Field coincided with the increase in the number of
leased nontactical vehicles. Further, the additional nontactical vehicles operating at
Bagram Air Field created traffic jams for the DoD buses and caused them to get behind
schedule. The trend of the average monthly number of bus passengers at Bagram Air
Field is shown in the figure.




                                                 6
                         Bus Use for March 2006 through December 2007


                    80
  Passenger Count



                    70
   (in thousands)



                    60
                                                                                              2006
                    50
                                                                                              2007
                    40
                    30
                    20
                    10

                         Mar.   Apr.   May   Jun.   Jul.   Aug.   Sep.   Oct.   Nov.   Dec.




Source: Regional Transportation Office, Bagram Air Field.

Tenant units did not consider the available bus transportation at Bagram Air Field when
determining whether to lease nontactical vehicles. In addition, justifications for leased
nontactical vehicles were inconsistent, and tenant units were not required to maintain
documentation on nontactical vehicle usage.

Conclusions
The tenant units located at Bagram Air Field use leased nontactical vehicles to perform
their missions. The circumference of the entire base is only eight miles. There is one
main road that circles the perimeter of the air field. The base is self-contained and
guarded at all times. Access to the base is limited to authorized personnel. According to
the CJ4 records, there were 1,548 leased nontactical vehicles at Bagram Air Field as of
January 17, 2008, consisting of cars and small trucks. With that number of nontactical
vehicles operating at Bagram Air Field, there is traffic congestion.

Although the ability to lease nontactical vehicles to support Bagram Air Field appeared to
be effective, additional review of justifications for the use of nontactical vehicles appears
warranted. Justifications for leased nontactical vehicles at Bagram Air Field did not
consider the local DoD bus service or were not always provided. The tenant units should
make better use of the DoD bus service at Bagram Air Field instead of leasing nontactical
vehicles for convenience.

Had CJTF-76 and then CJTF-82 enforced the DoD Motor Vehicles Regulation and
ensured that the number of leased nontactical vehicles was reduced instead of increased,
the U.S. Army could have saved approximately $16 million, which could have been put
to better use for operational units. The average annual lease cost of a nontactical vehicle



                                                           7
was $900 a month, or $10,800 each year; therefore, the annual price tag for
1,446 additional leased nontactical vehicles was approximately $16 million a year.

On March 3, 2006, CJTF-76 did recommend a reduction in the nontactical vehicle fleet at
Bagram Air Field by 50 percent. The CJTF-82 FRAGO 866, dated March 5, 2008,
directed Base Operations to “develop a nontactical vehicle reduction plan with goal of
reducing on-post vehicle population by 25%.” On June 17, 2008, the CJTF-101, Red
Team issued a report regarding nontactical vehicles. The Red Team analyzed the
nontactical vehicle requirements, utilization, and alternatives on Bagram Air Field to
determine how best to serve the needs of tenant units while economizing on the use of
nontactical vehicles. The analysis provided short-term and longer term actions that could
be taken to improve nontactical vehicle management. CJ4 intends to develop and
implement new policy guidance on nontactical vehicle management and implement a
vehicle registration process.

Client Comments on the Finding and Our Response
The CJTF-101 Chief of Staff stated that:

       Data provided by CJTF-82 Logistics Office (CJ4) on increases in the number of
       [nontactical vehicles] from 2006 to 2008 is suspect but is probably the best data available
       to the auditors performing the audit. The start point of 102 [nontactical vehicles] in 2006
       is inferred from the last known data point from the CJ4 office and not necessarily
       corroborated with records in the Resource Management Office or the Regional
       Contracting Center. To say that there were only 102 leased vehicles on [Bagram Air
       Field] in March of 2006 is questionable.

During the audit, we discussed this with CJTF-101 CJ-4 officials, and they could not
provide any data other that that provided to us by CJTF-82. This was the best available
data; thus, we did not revise the report.

Further, the CJTF-101 Chief of Staff commented that the discussion on page 4 on the Red
Team study states that it was done “in response to FRAGO 866,” and he stated that this is
not correct.

       CJTF-101 CJ4 requested the study in order to determine if a flat 25% reduction in
       [nontactical vehicles] was practicable bottom line: it was not in response to the FRAGO,
       but rather to gain better understanding of the scope of the problem and to determine a
       way ahead with reductions and better oversight based on the facts. . . . At the time of the
       transition to CJTF-101 in April, no efforts had been made to implement a reduction
       primarily because [Task Force] Cincinnatus was not empowered to mandate reductions.
       As a result, the status quo continued. The Red Team study provided an initial start point
       for a new approach on [Bagram Air Field nontactical vehicle] management.

We deleted the words “in response to FRAGO 866” on page 4 of our report.




                                                    8
Recommendations, Client Comments, and Our
Response
Recommendations
We recommend that the Commander, Combined Joint Task Force-101 implement
the following:

       1. Review the current distribution of leased nontactical vehicles at Bagram
Air Field and ensure that the remaining nontactical vehicles are mission-essential.

      2. Remove nontactical vehicles from Bagram Air Field that do not have
proper approval from the Logistics Office (CJ4).

       3. Enforce DoD Regulation 4500.36-R, “Management, Acquisition, and Use
of Motor Vehicles,” dated March 16, 2007, for the use and procurement of
nontactical vehicles at Bagram Air Field when reviewing the justifications and use
of nontactical vehicles by tenant units.

       4. Establish a central consolidation point to collect and maintain data on
nontactical vehicle inventories and operations and require tenant units that lease
nontactical vehicles to record specific mileage and purposes for using nontactical
vehicles and submit that data to the Logistics Office (CJ4).

Client Comments
The Chief of Staff, Combined/Joint Task Force (CJTF)-101 concurred with the four
recommendations. He stated that CJTF-101 has taken actions to improve the
management oversight of nontactical vehicles in use on Bagram Air Field. He further
stated that upon taking command of CJTF-101, the task force implemented a vehicle
traffic study, published in April, and a Red Team study of nontactical vehicle
management practices, published in June, and that the task force is implementing
procedures to comply with the recommendations.

In addition, the Chief of Staff stated that in October 2008, CJTF-101 was planning to
begin a new, annual registration program, incorporating the DoD Motor Vehicles
Regulation, for all nontactical vehicles on Bagram Air Field. All vehicles without proper
approval or not mission-essential would be redistributed or turned in, depending on the
length of the lease. A nontactical vehicle review board was to meet monthly to review
trends in usage and validate all new nontactical vehicle procurement requests. Finally, on
August 19, 2008, CJTF-101 issued FRAGO 384, which superseded all other FRAGOs
related to nontactical vehicles.

Our Response
We commend the actions taken by the CJTF-101. The Chief of Staff’s comments were
responsive to our recommendations, and no further comments are required.



                                            9
Appendix A. Scope and Methodology
We conducted fieldwork for this performance audit from November 2007 through
January 2008 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

From November 2007 through January 2008, we reviewed active nontactical vehicle
records for costs and mileage. The purchased and leased nontactical vehicles reviewed
were for cars and trucks used at Bagram Air Field for the time period of March 2006
through January 2008. We examined leased nontactical vehicle contract records from the
RCC Bagram, the nontactical vehicle records from CJTF-82, Logistics Office (CJ4), the
Vehicle Density list from DCMA, and the property book records from the Property Book
Office. At RCC Bagram, we reviewed justifications for leased nontactical vehicles
appearing on Purchase Request and Commitments (Department of Army Form 3953) and
on Requests for Purchases (Air Force Information Management Tool 9). We were
provided bus use data from the Regional Transportation Office.

Because of a limited time frame to complete the audit, we focused on leased nontactical
vehicle contracts available at RCC Bagram. The last nontactical vehicle that was
purchased through the LOGCAP at Bagram was in May 2006.

Review of Internal Controls
We identified material internal control weaknesses for CJTF-82 as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006,
as they applied to the audit objective. DoD Instruction 5010.40 states that internal
controls are the organization policies and procedures that help program and financial
managers achieve results and safeguard the integrity of their programs. We determined
that the CJTF-82 had a material internal control weakness in not organizing or controlling
the process by which tenant units at Bagram Air Field leased nontactical vehicles.
Implementing our recommendations will improve the internal controls over the issue of
nontactical vehicle leases. We will provide a copy of the report to the senior CJTF-82
official responsible for internal controls.

Use of Computer-Processed Data
We did not use computer-processed data in this report.

Prior Coverage
No prior coverage has been conducted on the use of nontactical vehicles at Bagram Air
Field during the last 5 years.




                                           11
Combined Joint Task Force-101 Chief of Staff Comments




                   Click to add JPEG file




                                  13
                          Final Report
                           Reference




                         Not revised.



                         Revised.




Click to add JPEG file




               14
Click to add JPEG file




               15
Click to add JPEG file




               16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Joint
and Overseas Operations prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Donald Bloomer
Timothy Moore
Joseph Guba
James Setlock
Kartik K. Srinivasan
Matthew Schwersenska
Liz Scullin
